nn

2311 Douglas Street COCKL E P E-Mail Address

Omaha, Nebraska 68102-1214 Est. 192 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 34 www.cocklelegalbriefs.com
Fax: (402) 342-4850

 

No. 21-13

KINDERCARE EDUCATION, LLC,
Petitioner,
vs.

THE SUPERIOR COURT FOR THE
STATE OF CALIFORNIA FOR THE
COUNTY OF SAN FRANCISCO, ET AL.,
Respondents,

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
ROCHELLE WESTMORELAND IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5195 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska Av
RENEE J. GOSS 9. ( bec mis , Ch L, j

My Comm. Exp. September 5, 2023
Notary Public Affiant 41219
